                                                     NAnONAL SCIENCE FOUNDA nON
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESnGA nONS

                                               CLOSEOUT MEMORANDUM

 Case Number: Al1060045                                                                           Page 1 of 1



                  NSF OIG received an allegation of plagiarism in a pI'sl proposa1.2 We contacted the PI
          about the alleged plagiarism, and she acknowledged that the source document was not fully and
          properly attributed. Because of the existence of citations to the source document and the small
          amount of copied text, the PI's act does not rise to the level of research misconduct. Thus, we sent
          the PI a letter reminding her to carefully and fully cite all source material. Accordingly, this case is
          closed.




NSF 01G Form 2 (11102)
